<html>
<title> - IMPLEMENTING THE GLOBAL FOOD SECURITY ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                      IMPLEMENTING THE GLOBAL FOOD
                              SECURITY ACT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2017

                               __________

                           Serial No. 115-59

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-309 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                  
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia



























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Theodore Lyng, acting special representative for Global Food 
  Security, U.S. Department of State.............................     4
Beth Dunford, Ph.D., assistant to the administrator, Bureau for 
  Food Security, U.S. Agency for International Development.......    11
Mr. C.D. Glin, president and chief executive officer, U.S. 
  African Development Foundation.................................    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Theodore Lyng: Prepared statement............................     7
Beth Dunford, Ph.D.: Prepared statement..........................    13
Mr. C.D. Glin: Prepared statement................................    22

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
Questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and chairman, Subcommittee on Africa, Global Health, 
  Global Human Rights, and International Organizations, and 
  written responses from:
  Beth Dunford, Ph.D.............................................    50
  Mr. C.D. Glin..................................................    52

 
               IMPLEMENTING THE GLOBAL FOOD SECURITY ACT

                              ----------                              


                         TUESDAY, JULY 18, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:38 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    And let me first and foremost say to our distinguished 
witnesses, I apologize for being late. We did have a series of 
votes. But more importantly, and it goes for our ranking 
member, Karen Bass will be here more momentarily, we deeply 
appreciate your extraordinary work to bring food to those who 
need it so desperately. So I want to thank you for that work. 
We look forward to your comments. And so let me initiate the 
hearing.
    We are here today to assess the impact of the Global Food 
Security Act and judge how well it is being implemented. We do 
so with an eye toward reauthorization later on in this 
Congress.
    By way of background, as many of you know, the Global Food 
Security Act was a standout piece of bipartisan legislation 
that was passed in the last Congress. I was the author of the 
House version of the bill, which had the support of Ms. Bass 
and Mr. Meadows from our subcommittee, and Betty McCollum, who 
was the principal Democratic cosponsor on our bill.
    While the Global Food Security Act was only signed into law 
in 2016, it codified a policy that has a far longer history. 
Like the landmark PEPFAR program, it also bridges multiple 
administrations.
    By way of history, it was President Bush who, beginning in 
2002, started to elevate the importance of food security in 
U.S. foreign policy, especially in Africa, via the Initiative 
to End Hunger in Africa, which was funded through development 
assistance and implemented through USAID.
    At the same time, the Millennium Challenge Corporation 
began making substantial investments in agricultural-led 
economic growth programs, particularly in Africa. It was from 
this foundation that President Obama instituted the Feed the 
Future Initiative launched at a G8 meeting in Italy in 2009. By 
that time, food in security as a national security issue had 
come to the fore. The years 2007 to 2008 saw a rise in food 
prices across the world, and the ensuing political turmoil that 
this caused led to a rise, for example, of the Muslim 
Brotherhood in Egypt.
    Today, we see President Trump and his administration 
continuing to implement the Global Food Security Act. We are 
also at a point where we can begin to assess the success of 
implementation, underscoring an important point for 
legislators: It is never sufficient simply to pass legislation, 
but Congress has a constitutionally prescribed mandate to make 
sure that the executive branch faithfully executes the laws 
that it passes, and to find where there might be glitches, 
gaps, and unmet needs that need to be remedied.
    Among the things we look forward to hearing about are 
results from our efforts collectively. Have we been successful, 
for example, in reducing stunting, one of the key purposes of 
the act and an outcome that is measurable?
    We also want to know about the country selection process. 
How are countries that we decide to partner with chosen? What 
criteria do we use, and is the criteria measurable and 
objective?
    And how faithfully is the Global Food Security Act's 
mandate to work with smallholder farmers being implemented? To 
that end, we hope to hear from the President of the African 
Development Foundation and what they are doing on that front.
    As we look forward to reauthorization, we need to ask 
ourselves what is working, what isn't working, and what we can 
do a better job to maximize the effect of our investment.
    Consider, for example, our nutrition programs aimed at 
mother and children during the first 1,000 days of life window, 
from conception to the second birthday. We know that this 
period is absolutely critical for achieving healthy outcomes in 
children and stays with them throughout their lives, helping to 
boost their natural immunities, and to ward off diseases and 
giving them a head start in life. We hope to hear from USAID on 
the successes of our nutrition interventions, especially during 
this critical first 1,000 days.
    I would note parenthetically, in 2010, I was actually at 
the United Nations when seven First Ladies of Africa launched 
an effort to try to combat chronic malnutrition and especially 
to reach those children during the first 1,000 days and their 
mothers, because it does mitigate maternal mortality and makes 
mothers that much healthier. And it was really something to 
see. Lady Odinga of Kenya was the lead on that, and all the 
other six First Ladies did a wonderful job talking about what 
could be done and what the promise actually was.
    We also need to ask ourselves, are we truly firing on all 
cylinders? Are we achieving the best possible results in terms 
of nutrition and stunting reduction, or are we failing to 
maximize our investments?
    Recently, I was, along with Karen Bass, in South Sudan and 
Uganda. And when we were in Uganda, we met with President 
Museveni, and I gave him not only background on what you are 
doing, Ms. Dunford, on the first 1,000 days initiative, but 
also a book, ``The First 1,000 Days,'' written by the award 
winning journalist who used to write for The Wall Street 
Journal. And he took it. And I said, Mr. President, you have 
got to read this. Your country has signed up for it, but it is 
all a matter of implementation. And if you need other 
resources, let us know, and we could do our level best to try 
to ensure that that happens.
    USAID, for example, has a neglected tropical diseases 
program that addresses intestinal worms, parasites that affects 
close to 1 billion people. If this work, however, is siloed, if 
worms are not addressed concomitantly with our nutrition 
interventions, the question arises, are we maximizing our 
nutrition interventions? In other words, are we feeding the 
future or are we feeding the worms?
    And we do have a bill that has passed out of committee, 
which I have introduced, along with my friend and colleague, 
Ms. Bass, on neglected tropical diseases. These all work 
synergistically. Our hope is we can get that over the finish 
line, but I know that you are doing wonderful work on that as 
well.
    It is relatively inexpensive to conduct deworming 
interventions among affected populations. The gains, however, 
can be enormous. One recent study on cost effectiveness 
concluded that deworming's effect is robustly positive with a 
weight gain per dollar spent more than 30 times greater than 
those found in simple school feeding programs. So the empirical 
data seems to point that every dollar invested goes a long way 
to making our young people especially healthier.
    Thus, we need to ask whether we are taking advantage of 
those synergies and our nutrition efforts by not only including 
deworming, but also following up on behavior changes, like WASH 
or water, sanitation, and health instruction.
    Sometimes the solution of how to keep reinfestation by 
worms from happening can be as simple as providing children 
with a pair of shoes, as worms often enter the body through a 
foot that can come into contact with infected soil, or making 
sure vegetables are washed thoroughly and peeled.
    Today, the question for USAID is whether we are fully 
utilizing such synergies. Tomorrow, the question for us here in 
Congress will be what can we do in our reauthorization 
legislation to ensure the USAID is given the necessary 
direction and tools to prioritize such synergies.
    I would like to now introduce our distinguished panel, 
beginning first with Mr. Theodore Lyng, who is currently 
serving as Director and acting Special Representative of the 
Secretary of State's Office of Global Food Security. He was 
previously the director of the Office of International 
Conferences in the Bureau of International Organization 
Affairs. His most recent overseas assignment was political 
consular at the U.S. Embassy in Jakarta, Indonesia. He also 
served in China, Malaysia, as well as in Russia.
    We will then hear from Dr. Beth Dunford, who is the 
Assistant to the Administrator at USAID's Bureau for Food 
Security, as well as the Deputy Coordinator for Development for 
Feed the Future, the U.S. Government's global hunger and food 
security initiative. In this dual role she coordinates 
implementation of Feed the Future across the U.S. Government, 
oversees in its execution, reports on results, and leads 
engagement with the external community to ensure that food 
security remains high on the developmental agenda.
    She also oversees USAID's technical and regional expertise 
focused on improving food security to sustainably reduce 
hunger, poverty, and undernutrition. Dr. Dunford testified 
before this subcommittee before appearing at our hearing in 
June of last year entitled, ``Leveraging U.S. Funds: The 
Stunning Global Impact of Nutrition and Supplements During the 
First 1,000 Days,'' and gave a keynote address on the 
importance of nutrition in areas of conflict as part of this 
subcommittee's engagement with diplomats from African 
countries. And we heard back from those ambassadors, and they 
were deeply impressed with what you had to say that day and 
your work.
    We will then hear from Mr. C.D. Glin, President and CEO of 
the U.S. African Development Foundation, a U.S. Government 
agency dedicated to supporting African-led, African-driven 
development solutions via financial investments in and local 
technical assistance to African grassroots communities and 
local enterprises. Prior to joining the organization, Mr. Glin 
was based in Nairobi, Kenya, was the associate director for 
Africa for the Rockefeller Foundation, and previously served as 
a White House appointee at the U.S. Peace Corps and the first 
Director of Intergovernmental Affairs and Global Partnerships.
    Again, thank you for being here.
    And, Mr. Lyng, the floor is yours.

 STATEMENT OF MR. THEODORE LYNG, ACTING SPECIAL REPRESENTATIVE 
       FOR GLOBAL FOOD SECURITY, U.S. DEPARTMENT OF STATE

    Mr. Lyng. Thank you, Mr. Chairman.
    Chairman Smith, Ranking Member Bass, and members of the 
subcommittee, thank you for inviting me to speak with you today 
on the implementation of the Global Food Security Act. Your 
passion and conviction in fighting hunger and malnutrition have 
been crucial to our progress, and it is an honor to speak 
before you.
    As you know, the bipartisan Global Food Security Act gave 
the President the tools to address food in security and the 
suffering chaos and instability that it causes. Now more than 
ever global food security is critical to the world's security, 
and specifically the United States' security.
    When global food prices spiked in 2008, civil unrest and 
violence erupted in more than 60 countries worldwide. And, in 
fact, a 2015 intelligence community assessment estimated that 
the risk of food insecurity in countries of strategic 
importance to the United States would increase through 2025. In 
some countries declining food insecurity could spark large-
scale political instability.
    Today, over 80 million people are facing extreme food 
insecurity, and 20 million people face the threat of famine as 
a result of manmade crises in Yemen, Nigeria, and South Sudan, 
all of which are driven by violent conflict, and in Somalia 
where conflict is aggravating the effects of a drought.
    Further raising global levels of hunger are the more than 
65 million people, more than any time since World War II, who 
have been forcibly displaced from their homes and have lost 
their livelihoods. So the stakes are high and the GFSA provides 
the basis for U.S. action.
    Much of this action involves on-the-ground interventions to 
develop agricultural economies, and promote scientific 
research. And my colleagues, Beth and C.D., will talk about a 
lot of these on-the-ground interventions, among other things.
    However, I wanted to set the stage by discussing how 
diplomacy is an essential element of a solution and how the 
State Department and other agencies are working in many 
international institutions to mitigate conflicts, build 
democracy and governance, and address the causes of prolonged 
instability. That we are facing the threat of famine in four 
countries highlights the need to address root causes and build 
long-term resilience.
    The Department of State engages foreign governments, 
international organizations, and other partners diplomatically 
through bilateral and multilateral channels to address the 
causes of global food insecurity and famine. Multilaterally, we 
are working through the U.N. system, the G7, the G20, APEC, and 
other fora. For example, global food security and nutrition 
featured prominently at the G7's Taormina summit that President 
Trump attended in May.
    In APEC, the Department is actively involved in the Policy 
Partnership for Food Security, which supports the goals of the 
GFSA by strengthening public-private cooperation to address 
food security issues. Engaging the U.S. private sector in these 
initiatives is a win-win; it addresses the problem of hunger, 
while creating economic opportunities within our own country.
    In addition to these diplomatic initiatives, the Department 
is also engaging in global resilience programs focused on 
vulnerable food sectors, such as fisheries. For example, the 
Department is engaging on the Caribbean Oceans and Aquaculture 
Sustainability Facility (COAST)--I take no responsibility for 
that acronym, by the way--a program aimed at establishing 
innovative insurance facilities for the fishery sector.
    Innovation is a key element of our work on food security, 
and programs like COAST have shown how the U.S. Government can 
use new models to mobilize private and public resources to 
address food insecurity.
    Today, I will briefly mention two issues that I think are 
of growing importance: Nutrition and urbanization. Under the 
GFSA, improving nutrition, which has a major impact on economic 
and human development, is a key objective. The State Department 
supports GFSA objectives by fully engaging in forming global 
policy on nutrition.
    This helps create some of the synergies that the chairman 
mentioned earlier. So in that sense, in that context, the 
Department cofounded the 1,000 Days partnership and engages in 
the Scaling Up Nutrition Movement, the U.N. Decade of Action on 
Nutrition, and the Nutrition for Growth Summit to try to 
mobilize countries, civil society, and the private sector to 
support global nutrition.
    And while the act quite properly focuses on the smallholder 
farmer, I think urbanization is another important issue that is 
emerging. By 2050, two-thirds of the global population will 
live in cities, and 90 percent of this growth will occur in 
Africa and Asia.
    While urbanization is often associated with economic growth 
and the rise of the middle class, many urban dwellers cannot 
access or afford an adequate amount of nutritious food. In this 
context, feeding rapidly urbanizing populations is becoming a 
central concern for food security policy, an issue the 
Department brought to the U.N.'s Habitat III summit last year.
    So to conclude, addressing global food security is a 
critical need, as reflected in the GFSA. The State Department 
supports the GFSA objectives to help alleviate the suffering of 
hunger, to help guarantee U.S. security, and to help create 
opportunities for U.S. businesses.
    We thank you for your support.
    [The prepared statement of Mr. Lyng follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Mr. Smith. Mr. Lyng, thank you very much for your 
leadership. Thank you for your testimony.
    I would like to now yield to Dr. Dunford.

      STATEMENT OF BETH DUNFORD, PH.D., ASSISTANT TO THE 
   ADMINISTRATOR, BUREAU FOR FOOD SECURITY, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Dunford. Thank you very much.
    Good afternoon, Chairman Smith, Ranking Member Bass, and 
members of the subcommittee. Thank you for inviting me to speak 
with you today, and thanks to the Congress for your continued 
support in leadership on food security and nutrition.
    I also want to thank my colleagues, C.D. Glin and Ted Lyng, 
for being here today, as well as our interagency partners with 
whom we collaborate closely under Feed the Future.
    Mr. Chairman, today, there are nearly 800 million hungry 
people in the world, and by 2050, there will be more than 9 
billion mouths to feed. This is both a challenge and also an 
opportunity for our country.
    Feed the Future, guided by the Global Food Security 
Strategy, is leveraging investment from partner countries and 
the private sector to reduce reliance on humanitarian aid and 
promote American prosperity, deliver results, and build 
stability around the world.
    While the world responds to the devastating situation of 
near famines in Yemen, Somalia, South Sudan, and Nigeria, we 
must bridge the gap between humanitarian and development 
action, building resilience to address increasingly complex 
risks and their impacts on vulnerable people, and lasting food 
security for future generations.
    Through Feed the Future, we are combating the root causes 
of hunger and strengthening the resilience of communities and 
countries by investing in agriculture. Today, 9 million more 
people are living free from poverty, and 1.8 million more 
children are living free from the devastating effects of 
stunting, where Feed the Future works. And the old adage holds 
true: An ounce of prevention is worth a pound of cure.
    By investing in long-term solutions to food security today, 
we can reduce the need for costly food aid in the future and 
help entire countries move from food aid dependence to self-
sufficiency.
    And while we have achieved impressive gains over the last 6 
years, there is still more to be done. As populations soar, 
lack of opportunities and food can push people to take 
desperate measures. And far too many children in vulnerable 
communities around the world still don't get enough nutritious 
food to eat, robbing them of their future potential.
    In response, over the last year alone, Feed the Future 
efforts have reached nearly 27 million children with 
interventions to improve their nutrition, particularly in the 
critical 1,000-day window from pregnancy to a child's second 
birthday.
    Food security also affords opportunities for America's own 
economy and prosperity. Feed the Future supports policies that 
open trade in the agriculture sector, reduce corruption, help 
U.S. businesses compete and expand into new markets, and 
increase foreign demand for American products.
    And as diseases that threaten foreign crops and livestock 
make their ways to our shores, American farmers and ranchers 
benefit from the work that we are already doing to combat them 
through 24 Feed the Future innovation labs, which are supported 
by over 70 top U.S. universities and colleges.
    I would like to conclude with an update on how Feed the 
Future is evolving under the Global Food Security Act. We have 
worked with the 11 Feed the Future partner agencies and 
departments to develop a new whole-of-government Global Food 
Security Strategy, along with department and agency-specific 
implementation plans incorporating findings from evaluations 
and consultations.
    We are identifying target countries where U.S. Government 
investments have the greatest potential to achieve sustainable 
improvements in food security and nutrition. We have also begun 
developing a process for creating country plans that outline an 
evidence-based whole-of-government approach to achieve our 
goals in each of the target countries.
    To strengthen Feed the Future's existing accountability 
mechanisms, we are upgrading the set of indicators that we use 
for performance monitoring. And we are developing a new 
research strategy that will help us improve food security and 
nutrition in the face of complex and dynamic challenges.
    Feed the Future has shown that progress is possible. By 
bringing partners together, the U.S. Government has achieved a 
great deal in lifting families around the world out of poverty 
and hunger, and this is something every American can be proud 
of.
    When I was in Senegal last month, I saw how our 
partnerships with the government and the private sector are 
empowering rice millers, like Daba Fall. Daba Fall accessed 
training through Feed the Future that equipped her with the 
tools, the resources, and the confidence to become an 
entrepreneur. She is now helping her community break from the 
cycle of hunger and poverty and feed itself by creating more 
local jobs.
    We have an approach that works to break the cycle of hunger 
and poverty, and we are refining our systems for continual 
feedback and improvement. We cannot do this without the United 
States Congress' support. And I want to thank you again for 
your leadership and commitment on this issue.
    [The prepared statement of Ms. Dunford follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Dunford, thank you very much.
    Mr. Glin, if you can testify.

   STATEMENT OF MR. C.D. GLIN, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, U.S. AFRICAN DEVELOPMENT FOUNDATION

    Mr. Glin. Chairman Smith, Ranking Member Bass, members of 
the subcommittee, thank you for inviting me to speak with you 
today. Thank you for your leadership and support as we 
commemorate the 1-year anniversary of Congress passing the 
Global Food Security Act. A special thanks for your passion, 
conviction, and commitment to the fight to end global hunger.
    I came to USADF, the African Development Foundation, less 
than 1 year ago, having previously served as a Peace Corps 
volunteer in South Africa during the Presidency of Mandela, so 
it is a special privilege to testify today on this Mandela Day.
    I went on to live and work in northern Nigeria and most 
recently in Kenya with the Rockefeller Foundation. So I bring a 
personal and professional commitment to this work. I can't be 
more honored and more humbled to be leading USADF's efforts at 
this time in the implementation of the Global Food Security 
Act.
    The U.S. African Development Foundation is an independent 
agency that functions as an alternative to the traditional aid 
that the United States regularly provides in Africa. 
Established by Congress in 1980 to encourage self-sufficiency 
and entrepreneurship amongst poor and vulnerable populations, 
USADF is a model for doing development differently.
    With the enactment of GFSA and its implementation over the 
past year, USADF's catalytic grassroots level support has been 
amplified through enhanced interagency coordination. Our 
inclusive participatory and community-led efforts are linked to 
and aligned with country and continental efforts to reduce 
hunger and alleviate poverty.
    Our foreign assistance provides underserved communities 
across Africa a voice and a choice in their economic 
development priorities. Our community-led work is critical, now 
more than ever, as sub-Saharan Africa continues to struggle 
with record levels of displacement and hunger as a result of 
conflict and drought, as well as millions who are on the brink 
of starvation in South Sudan, Somalia, and Nigeria, all 
countries in which USADF is active.
    We address hunger and insecurity at the root cause by 
focusing at the grassroots. Through Feed the Future, as guided 
by the Global Food Security Strategy, USADF has invested over 
36 million in agriculture investments and nine Feed the Future-
focused countries in Africa. We have worked with over 180,000 
farmers, over half of which who are women, and impacted nearly 
1 million people who are living free from hunger.
    Many entities talk about smallholder farmers. We talk to 
them. Approximately 70 percent of our investments are focused 
on supporting agricultural-led economic growth for smallholder 
farmers who represent nearly 70 percent of Africa's labor force 
and are the backbones of its economies.
    Our grants assist hundreds of agricultural cooperatives to 
develop better enterprise management skills, improve production 
and distribution capabilities, and access larger markets. For 
instance, in Turkana, northern Kenya, we have helped 
communities move from being food-aid dependent to self-
sufficient food producers and entrepreneurs.
    USADF's purpose, our programs, and our partnerships bring 
the voices and the choices of smallholder farmers to GFSA 
implementation. Our purpose is on creating pathways to 
prosperity for underserved communities, those at the first 
phase of development, the first mile of development.
    At USADF we don't talk about the last mile starting with 
program design here in Washington, DC, our programs start where 
there are no paved roads. We respond to the needs of 
communities and catalyze the first mile of development, 
creating pathways to self-sufficiency and pathways to 
prosperity.
    We don't simply make grants. We make a difference and bring 
about transformational change in the lives of poor and 
vulnerable people. Our 20 country programs are managed by 100 
percent African staff. Our agility, nimbleness enables us to 
create catalytic demonstration projects, which serve as a model 
for locally owned, impactful, and self-sustaining development 
programs, which deliver results utilizing our in-country 
management and Africa and technical partners, not expats nor 
contractors.
    We invest directly in early stage grassroots enterprises. 
We provide seed capital up to $250,000 and local technical 
assistance. Partnerships with communities, countries, and 
corporations are important elements of USADF's value-add to 
GFSA and broader foreign assistance as a whole.
    In the last 10 years, USADF has leveraged approximately $25 
million in host country government cofunding and deployed an 
additional $5.1 million in funds from other U.S. Government 
agencies. We maximize the impact of taxpayer dollars by 
matching U.S. funds with leverage cofinancing from host country 
African governments that invest their resources directly into 
USADF programs.
    In Uganda, the government recently recommitted an 
additional $5 million over the next 5 years. U.S. corporations, 
such as General Electric and Citigroup, also collaborate with 
USADF to leverage our unique capabilities. Last year, with an 
appropriation of $30 million and 20 country programs, we 
impacted 250,000 jobs and improved the lives of 1.5 million 
people.
    In conclusion, USADF's enduring relationship with 
communities in Africa provides a unique model for African 
development, giving smallholder farmers a voice and a choice. 
Our foreign assistance is not a donation but rather an 
investment in local lives and local enterprise. We enable the 
poor to participate in their own development, to enhance 
opportunities for themselves, and to create pathways to self-
sufficiency and prosperity via local enterprise creation.
    Through the Global Food Security Act, USADF transforms the 
quality of life for millions of people and communities across 
Africa and strengthens America's leadership in Africa and the 
world.
    Thank you.
    [The prepared statement of Mr. Glin follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Mr. Smith. Thank you very much for your testimony and your 
leadership.
    Since we do have a number of members in the subcommittee 
here, I will ask all of my questions at once just to expedite.
    So first--and let me ask Mr. Lyng, if you could--Karen Bass 
and I were actually in South Sudan and Uganda, as I referenced 
in my opening comments, around the Memorial Day recess. And 
frankly, we came away deeply concerned about the cuts in 
funding for the individuals at Bidi Bidi camp, which is one of 
the largest camps anywhere.
    And what we learned was that they cut their food assistance 
available by 50 percent. Corn and other foods were literally 
cut in half. And I am not sure how they subsist on such meager 
resources, because many of the people are already quite thin 
from the devastating impact of the war and the famine.
    I did note that you pointed out that in Italy, May 26 
through 27, the G7 had a resolution about mobilizing assistance 
to address the famine or near-famine in Nigeria, Somalia, South 
Sudan, and Yemen, which is a great statement, again, the G7 
stepping up. And perhaps it would be helpful if you could tell 
us what that could mean in real terms for these folks that are 
suffering.
    I would point out that back in October 20, 2015, I actually 
chaired a hearing and one of many on the refugees fleeing from 
the Middle East mostly, but some from Africa, and even from 
refugee camps run by the UNHCR and others. And the reason given 
was very simply that for year over year, the UNHCR would put 
out a call for funding. And the international community led by 
the U.S.--but we would not make up the differences that the EU 
and others failed to provide--would only come up to about 40 
percent of what the appeal was, so in other words, unmet need 
every year, every year for 5 years, 60 percent.
    And that the proximate cause, according to the UNHCR's 
representative at the hearing, was the one-third cut in the 
World Food Programme. And they finally said we are out of here. 
They upped. And once the exodus started, a trickle became a 
mass exodus mostly into Europe. It seems to me that Europe and 
all of us could have been much more proactive in making sure 
that those food security needs were indeed met.
    So my question would be again, G7, are we meeting it? As 
you mentioned, Dr. Dunford, worldwide, 81 million people are 
projected to need emergency food aid, and of course, 20 million 
are at grave risk in these famine countries. So if you could 
speak to that.
    Secondly, on the first 1,000 Days, Dr. Dunford--and again, 
I salute you and for the work that you have done for several 
years on this. It is an outstanding program. How many countries 
have actually signed up for the program that you lead, and are 
they being faithful in implementing it?
    One thing that we said to President Museveni was, thank you 
for signing up, but more needs to be done because, obviously, 
the need is so incredible. And I do appreciate that you had 
some of those figures for how the number of children with 
stunting has gone down by 1.8 million.
    You mentioned, Dr. Dunford, upgrading a set of indicators. 
Either for now orally or perhaps for the record, if you could 
give us a detailed list of those indicators. You said you are 
developing a new strategy that supports the Global Food 
Security Strategy. If you could provide us, you know, very, 
very good details on that, that would be very helpful to the 
committee. And then, again, if you could just speak to the 
resilience issue, which I think is so extremely important.
    We had a hearing in the full committee just the other day 
on microcredit lending. And one of the biggest takeaways of 
all--because I wrote two laws of microcredit lending. It used 
to be all about donor support, and now it is a matter of money 
coming in from deposits from people who now have bank accounts. 
The donor support from the governments has greatly been 
reduced, which means it is becoming self-sustaining, which is a 
great news story. So if you could speak to that. And how many 
target countries, if you could just be specific, under the 
first 1,000 Days.
    I have other questions, but, again, out of deference to my 
colleagues, I will ask you those first.
    Mr. Lyng. Thank you, Mr. Chair. I will have to take the 
question on the specific level of cuts in the camp, which I 
agree is extremely concerning, as generally displaced people do 
not have that margin of flexibility in their diet to absorb 
that kind of change. But I don't know the details right now.
    As far as mobilizing the G7 and what it means in real 
terms, well, the United States has stepped up with an 
additional contribution in the last few weeks. That will 
definitely mean much more food on its way to these camps.
    The G7 declaration, quite frankly, is a good way to get 
other nations to step up and also match the commitment to the 
United States, which remains the largest donor in emergency 
food assistance.
    Ms. Dunford. Great. Thank you very much for your questions.
    I would like to start with talking about microcredit. I 
think that is a really interesting and important question, as 
access to finance is one of the critical obstacles to families 
gaining self-sufficiency and improving their livelihoods.
    I was just meeting with some of our colleagues in Ghana and 
seeing a real effort to get more lending into the agriculture 
sector to farmers who really need it to improve their yields on 
their farms. And a bank in Ghana was really searching to do 
that and was very unsuccessful, even though they had loan 
guarantees helping to defray the increased difficulty of 
getting loans out to farmers.
    And what we saw was providing these banks with technical 
assistance really enabled them to better understand farming and 
what kinds of loans that, actually, farmers needed in order to 
take these loans, helped this bank go from $4 million to $54 
million in loans in just 1 year in the agriculture sector.
    So I think that is the kind of targeted technical 
assistance that we are talking about. It is not necessarily our 
funds being loaned but us making sure that financial 
institutions have the capabilities and the wherewithal to get 
money out to farmers. So we are seeing a lot of success in that 
front.
    On resilience, I think this is an area where we have really 
elevated resilience in the new Global Food Security Strategy to 
a strategic objective. And in the strategy that we submitted to 
Congress on October 1, you can see more details.
    Ethiopia is an area where we have really seen our 
resilience strategy play out. We recognize that the situation 
is deteriorating in Ethiopia, but in 2016, we saw that a very, 
very devastating drought was hitting the lowlands of Ethiopia. 
Communities and families that had been receiving comprehensive 
resilience and food security assistance over a number of years 
provided by USAID were able to maintain their food security 
status with only a 4 percent drop in that status; whereas, 
families outside of those areas without that assistance had a 
precipitous 30 percent decline.
    And so I think that is the type of investment that we would 
like to see more of over the long term in order to really 
mitigate against these recurrent shocks.
    Mr. Smith. If you could for the record, if not now, the 
number of countries, how well they are doing in terms of 
response.
    Ms. Dunford. Right. Okay. So I think we have--in the first 
phase of Feed the Future, we had 19 focus countries. Right now, 
we are undergoing in the final stages of doing country 
selection for the target countries under the Global Food 
Security Act.
    We used six criteria in order to identify those countries. 
One of them is country commitment, really demonstrating that 
countries are invested in food security and nutrition, that 
they are committed to putting the right types of policies in 
place in order to really be true partners and leaders on taking 
our efforts in food security and nutrition going forward.
    Mr. Smith. Thank you.
    Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair. I appreciate it. I don't 
know if in your opening comments you mentioned the Washington 
Post today, but they have an editorial talking about the 
famines.
    A question for Dr. Dunford and Mr. Lyng. I wanted to ask 
you about Somaliland. Actually, representatives from Somaliland 
came and met with me a couple of weeks ago and were concerned 
that, with the attention on Somalia, that Somaliland is not--
the issue there is not being addressed. And they have said that 
80 percent of their livestock has been wiped out.
    Also in Ethiopia, there was a presentation yesterday at the 
council on foreign affairs about Ethiopia. And I wanted to know 
if any of our assistance--and it is not targeted to those 
countries, but I wanted to know if you could comment about 
that, either one of you.
    Ms. Dunford. So on emergency food assistance, I have other 
colleagues at USAID that manage those programs and will get 
back to you with more specifics on where our assistance is 
going, our emergency assistance.
    I can talk about our longer-term development assistance in 
agriculture and nutrition. We have an extensive program in 
Ethiopia, and I think I put on the table some of the results we 
are seeing in terms of the ability of families to mitigate and 
manage through these shocks when they have had comprehensive 
resilience interventions.
    In Somalia, Somaliland, we are seeing that we are able to 
also invest in longer-term development issues and seeing good 
results with our value chain projects, focusing mainly on 
livestock and horticulture. And I can get you more information 
on that as well.
    Ms. Bass. Thank you. Thank you. I appreciate that.
    Mr. Lyng, did you want to comment?
    Mr. Lyng. No, other than to reiterate it is just breaking 
out of this cycle of emergency and response that these long-
term investments in resilience and food security will--if only 
to help us stop breaking the budget with this enormous 
humanitarian assistance----
    Ms. Bass. Right. Right, right. And, you know, when I think 
of resilience, I think of the ADF and the work that you have 
done over the decades. And, of course, I am very concerned, 
because in the President's budget it calls for the elimination, 
if I am not mistaken. Although, I am not sure what kind of 
support that is going to get up on the Hill.
    But given your long track record of focusing slowly on 
smallholder farmers in Africa and giving them voice and choice 
in the process of development, how does this make the GFSA more 
effective?
    Mr. Glin. Thank you, Ranking Member. The Foundation feels 
that GFSA has really been able to amplify our impact. The focus 
on agriculture-led growth, on increasing smallholder farmer 
incomes, on being inclusive of smallholders has really been 
able to not only link our efforts--which have, as you said, 
have been going on for the past 30 years, where we have been 
working and having impact at the community level to link back 
with broader U.S. Government efforts.
    So we have created somewhat of a conveyer belt where we 
focus exclusively at the grassroots, what we call community-led 
development. And our work carries over into the work of USAID 
and OPIC and other development partners that may be at the 
country level. So we feel like GFSA has really been able to put 
a spotlight on the unique contribution that we bring to the 
Global Food Security Act.
    And I wanted to comment on your point around Somalia. 
Somalia is a country that, since 2011, we have concentrated a 
lot of our programming on, especially as it relates not only to 
smallholder agriculture, but to youth employment.
    Ms. Bass. In Somalia or Somaliland or both?
    Mr. Glin. Both. We are operating in five regions of 
Somalia, Somaliland, Puntland, and the other territories. And 
we have been able to focus exclusively on looking at youth 
engagement not only in agriculture, but in job creation and job 
placement.
    And so youth unemployment is also a challenge that Somalia 
and Somaliland faces, and we have been at the forefront of 
ensuring that they are included in the growth and opportunities 
and the peace and stability of Somalia.
    Ms. Bass. You know, I really think that there needs to be 
more attention to ADF. Because, to me, the way we go about 
foreign aid a lot of times, where we are providing services 
versus trying to build up the capacity of people on the ground, 
you know, the essence of Feed the Future, to me, and Power 
Africa is really the work that you do. And I think it needs to 
be lifted up, you know, and illustrated more so that it is not 
just about us--and I am saying this to my colleagues on both 
sides of the aisle.
    But, you know, when we look at sustainability and all of 
that, it is not just about us giving away money or programs, 
but it is really about raising the capacity so our dollars 
aren't needed in the long run. Of course, they are certainly 
needed right now. But I don't think that a lot of people are 
fully aware of the type of programming that you do.
    I wanted to know, in that regard, how do you measure the 
success of your programs, and how do you ensure sustainability 
of the efforts after funding? So if you give a grant somewhere, 
you know, how long does that last, and how do you make the 
strategic decision as to where you go next?
    Mr. Glin. Thank you for the question, Ranking Member. We 
select our grantees and our groups that we provide grant 
financing to based upon a success metric. We actually designed 
the program with success in mind, and we also measure for 
success. We try to be efficient, effective, and have a serious 
return.
    So with our grants, we focus on capacity-building grants as 
well as growth-oriented grants, building the capacity of 
grassroots community organizations to be able to have 
organizational capacity strengthened, and to be able to really 
be an operating, small enterprise. And then we also fund at the 
level of expanding their enterprise, giving them market access 
and greater market linkages.
    Ultimate success for us, as you articulate, is that our 
funding is catalytic. It is a jump start. But those groups are 
on a pathway to self-sufficiency, so that we have played an 
important part in starting them or establishing them or giving 
them a helping hand, but it is a handoff, because they go on to 
get follow-on financing from others.
    That is essential to our development model. And I can say 
over three-fourths of our grants that are designed for growth 
are sustainable after our funding, and we have intentionality 
to link them to follow-on funding.
    We talk about it as where do our graduates go. Every 
college or university knows where their graduates went and how 
much they made. So when we invest in community enterprises, 
where do our enterprises go, and who else is providing follow-
on funding to them after we have invested?
    Ms. Bass. Do you have funding outside of government 
funding? In other words, you mentioned a couple of foundations 
that you worked for before. Do you have funding? Does ADF has 
funding there?
    Mr. Glin. Thank you, Ranking Member Bass. USADF has the 
unique capability to receive direct funding, not only from our, 
obviously, the appropriation that we get from Congress, but 
also from African governments. So African governments believe 
in this model of grassroots enterprise development of self-
sustainability for the community enterprises, and they invest 
along with USADF.
    Uganda is a perfect example of a country that wherein we 
invest $5 million and they coinvest that, that amount. So we 
actually program $10 million. So countries cofund in the past 
10 years. We have had $25 million of cofunding directly to U.S. 
Treasury account from African governments that want to advance 
their own poor and vulnerable rural populations.
    We also have corporations that say--under Power Africa and 
other U.S. Government initiatives, that say USADF is able to 
reach groups and communities, off-grid energy challenge, those 
at the rural areas in ways that we can't. And so they coinvest 
in ADF and leverage our unique capabilities to amplify their 
own impact. So countries as well as companies coinvest and 
leverage U.S. Government-appropriated dollars.
    Ms. Bass. Thank you. Thank you very much.
    I yield back my time.
    Mr. Smith. I would like to yield to Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chair. And I will take your 
lead and ask my two questions at the same time to save some 
time for answers of our panel.
    One is, I suspect you found better success in some nations 
than others throughout your efforts. Could you explain to us 
why you think that is, and can we take those efforts that are 
more successful and implement them in the areas where we are 
less successful?
    And the other thing I want to know is, aside from 
authorization and appropriation of financial resources, what do 
you believe that this larger Committee of Foreign Affairs, that 
this Congress can do to help your efforts?
    Ms. Dunford. Thank you very much for your question. 
Regarding success, we have a very, well-developed monitoring 
and evaluation system where we collect data and indicators 
across the whole range of our strategy. That would be on 
agricultural development, on resilience, and nutrition to see 
where we are achieving success.
    I think in countries where we have seen great success there 
are a multitude of factors involved. One of the key ones that I 
think we are very focused on going forward is host country 
government commitment to food security.
    We saw last year that we were able to work with governments 
to put in place 100 policies that really set the stage for 
success in agriculture and nutrition. It could be around 
facilitating the groundwork for private sector investment or 
host country commitment and engagement in areas like nutrition.
    And I think looking at those policies that really unlock 
and flourish success are what we are trying to put forward in 
the next phase of Feed the Future going forward. And, again, it 
is a key criterion in how we are selecting the countries that 
we will continue with as target countries going forward.
    Mr. Lyng. Well, Beth took the words right out of my mouth 
about government commitment, and I won't reiterate that. I 
would also say a serious attitude toward corruption, especially 
official corruption, certainly correlates with success very 
strongly.
    As far as the second part of your question, I think we have 
really profited from the consultation, especially at the staff 
level with your committee, and continuing that dialogue will be 
very helpful to our efforts.
    Mr. Glin. I would echo what Dr. Dunford has mentioned, the 
country commitment and, for us, the alignment of our engagement 
with the government strategy so it is not only community led 
but country led where we are a catalyst and an input to a 
broader development effort of a country. And Uganda is a 
perfect example of that, wherein our investments are leveraged 
by the Government of Uganda who adds to the funding that the 
U.S. Government gives USADF in a country such as that.
    And I think the coordination, increased coordination that 
we have and that comes through GFSA to be able to link and to 
distinguish the complementary effects that ADF gives to foreign 
assistance by having 11 agencies working together but for a 
common cause has been really essential. And we applaud you for 
that function within GFSA.
    Mr. Donovan. Thank you.
    Just a followup and then I will yield the remainder of my 
time. Are State Department using any leverage for those 
countries whose governments are corrupt, aren't cooperating 
with your efforts?
    Mr. Lyng. Certainly, corruption has been a focus of the 
State Department for some time now. It does enter into all this 
planning, and under the leadership of the Chief of Mission as 
part of a whole-of-government effort, is certainly considered. 
It has been a factor in the discussions we have of the target 
countries as well.
    Mr. Donovan. I thank you all.
    Chairman, I yield the remainder of my time.
    Mr. Smith. Thank you very much, Mr. Donovan.
    Mr. Castro.
    Mr. Castro. Thank you, Chairman.
    Thank you all for your testimony today.
    It looks as though the fiscal year 2018 budget proposal, at 
least the President's proposal, has deep cuts for global food 
security. And I know, at least at USAID and the State 
Department, you have to work with what the Congress approves 
and the President signs off on. But it is deeply disturbing.
    And I want to ask you, quite honestly, how many people do 
you think are going to starve around the world because of these 
cuts?
    Ms. Dunford. Thank you for your question. I think that 
USAID is committed to continuing our efforts in food security. 
And I think, as development practitioners, we are constantly 
forced to make difficult decisions, difficult tradeoffs with 
resources that are available.
    The problem is immense, as you say. We are really committed 
to using every dollar that Congress provides to achieve maximum 
impact, and really working with our partners, donor partners, 
also leveraging funds from governments and from private sector 
to address this monumental challenge.
    Mr. Lyng. Yeah, I agree with Beth. Our task is to maximize 
the effectiveness of the money that we have to work with, and 
we will do that with our greatest effort.
    The administration is committed to addressing global food 
security. We saw it at the G20, saw it at the G7, and we have 
seen in recent work in the famine. So within the level of 
budget set by the Congress and the President, we will do 
everything we can.
    Mr. Glin. So as my colleague said, USADF will be efficient 
and effective with whatever budget we are allocated and 
appropriated by Congress and the President. In fiscal year 
2016, we were appropriated $30 million. We impacted 250,000 
lives and 1.5 million people. With less, there will be impacts 
on lives in the communities and the countries that we operate.
    Mr. Castro. Thank you.
    And previously, Secretary of Defense Mattis stated that, 
``Climate change is impacting stability in areas of the world 
where our troops are operating today.''
    As climate change leads to increasing droughts, famines, 
and natural disasters, how will the Global Food Security Act 
supported efforts address these concerns? How does a lowered 
budget request align with the realities of climate change?
    Ms. Dunford. Thank you very much for that question. Looking 
at weather and how it impacts food security, we invest a lot in 
research to come up with new technologies that really are 
adapted to weather patterns and pests.
    We have, through sustained investment over many years, 
helped come up with a drought-tolerant maize, which is now 
being used among 6 million farmers in sub-Saharan Africa, 
mostly in southern Africa.
    In 2016, when they experienced a significant drought, you 
saw that yields could be up to 40 percent higher for those 
farmers that were using this drought-tolerant maize. That is 
the kind of investment that we have been making that is very, 
very important for weather-related events and that we will 
continue to make as we go forward.
    Mr. Lyng. Secretary Tillerson has said that the Department 
remains involved in the issue of climate change and believes 
that it continues to be important, and we will continue to 
remain engaged on this issue. As Beth said, changing weather 
patterns around the world do have an effect on food production. 
We are doing a small project in Central America with corn and 
bean cultivation in arid conditions. It is the type of thing we 
are working on.
    It is also important to us to make sure that American 
industry, American corporations remain at the table as we 
develop climate-smart techniques and this sort of thing. Part 
of the way we do that is engagement with the Global Alliance on 
Climate-Smart Agriculture, which is based in Rome.
    Mr. Castro. And then one final comment, Chairman, before I 
yield back. With this severity of cuts--in the Foreign Affairs 
Committee, which is a fairly bipartisan committee, we talk 
about concern for people around the world. I believe that these 
deep cuts will make for more desperate people around the world, 
people who are more apt because of their desperation to engage 
in illicit activity, like human trafficking, sex trafficking, 
drug running, anything they can do to survive, crossing 
borders. It very much goes against all of the work that we have 
put into helping build what I call an infrastructure of 
opportunity for people around the world. And so I want to 
express my deep, deep concern with this proposal.
    I realize it is not the final budget. I realize that a 
President's budget hardly ever becomes the budget, but it is a 
disturbing trend if this is what we are going to see when the 
final product comes to us.
    I yield back.
    Mr. Smith. Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    I would acknowledge and add my voice to the comments of my 
colleague from across the aisle as it relates to the negative 
ramifications of ignoring the problems that exist. And I do 
that because he acknowledges that this budget is probably not 
the final budget, but I think he is correct.
    And there are some points I want to hit on because it is 
neat for us to have three people of such influence in this 
particular important realm in our purview, and that is that you 
all have the interesting distinction of all working for 
programs that, if they are done well, in 100 years shouldn't 
exist, which flies in the face of the idea that the closest 
thing to eternal life on this planet is a government program. 
But really important work, and I think underscored by the fact 
that we place preeminent importance in funding our military and 
aggressively prosecuting radicalism and extremism across the 
planet, which I would argue is--pardon the bad metaphor--fed by 
malnourishment in developing nations. In other words, if you 
hand a 12-year-old who hasn't had a meal a rifle and tell him 
to go kill someone, it might be that he has a greater 
proclivity to do that by virtue of the fact that he thinks 
there is food at the end of it.
    And so to that end, I want to touch on a program that I 
think that McGovern-Dole delves into, and that is school 
feeding programs. The reason I want to do that is because I 
think they are of incredible importance, not just in ensuring 
that 1,000-day window and the nourishment and sustenance that 
young people need in order to mentally and physically develop 
to be productive adults, but also in empowering communities by 
virtue of extending education to often heretofore underserved 
populaces.
    As you all probably know better than others, or I would 
hope know better than others, in the developing world the 
percentage of individuals who work in agriculture is far, far 
greater than it is here. In fact, the size of the American 
family has shrunken immensely, as we have not needed young 
people to be at work on the farm. And we have arguments these 
days over things like what the school calendar should look like 
as we have now been decades from an agrarian society.
    But whether cultural or religious or based on the work 
needs of the family in order to provide food for the children, 
what we see are birth rates in a place like Ethiopia that in 
2014 was 4.4 per woman, which is compared to the United States, 
we are at 1.9, and Russia where we are at 1.7.
    And I want to magnify that by some facts that blew my mind 
when they came to my attention, and that is, if you compare the 
population of Russia--this is the first I have heard anybody 
talk about Russia in this building that didn't have to do with 
allegations against the administration. If you compare the 
population of Ethiopia to Russia, you find that the population 
density of--or the population of Ethiopia is 102 million; in 
Russia, minus the east Ukraine and Crimea, is 145 million. It 
is mind blowing.
    The population density in Russia is about 22 per square 
mile. The population density in Ethiopia is 222 per square 
mile. And if you know anything about geography, it really ought 
to be about 444 per square mile because about half the nation 
is not effectively arable land.
    And the birth rate in Ethiopia is, again, 4.4 per woman. 
Now, how do you change that? The most effective way to change 
that is to ensure that the young women of Ethiopia receive an 
education. The ancillary benefit is that when these young women 
receive an education and we extend microloans and opportunities 
to them, we see more businesses start up. As we see more 
businesses start up, we see a smaller percentage of the 
population relying on the agrarian lifestyle. As we see a 
smaller percentage of the population relying on an agrarian 
lifestyle, we tend to see strives forward in quality of life. 
And as we see striving forward in the quality of life, we see 
what I think is fundamental to our job here, and that is 
opportunity, right, and the ability to define success within 
sort of in a Jeffersonian construct, what you wish to do, so 
long as it doesn't harm another.
    So are you looking--long buildup for a short question. Are 
we looking at programs that work, and are we thinking in the 
macro, in the long term, rather than the micro? To be very 
cliche, are we teaching folks to fish as opposed to giving them 
fish?
    And further, to follow up, is there any discussion, and I 
hope there is, as to the long-term benefits, aside from simply 
tackling malnutrition problems and getting young ladies, young 
women into schools in areas where heretofore they hadn't been? 
But beyond that to the stemming, I would argue, of the tendency 
to be radicalized, how many dollars we spend today to help 
people have opportunity and eat versus how many dollars we 
spend tomorrow to build bombs and bullets that we would rather 
not use. Are those sorts of the conversations being had?
    And I will open the floor. We will just go in order from my 
left to right. That is you, sir.
    Mr. Lyng. So those conversations are being had. And this 
obviously is not a simple topic. I don't think you can draw a 
straight line equation that vulnerable communities equal 
radicalization, but there is no doubt that freedom from want is 
one of our best tools against radicalization.
    Mr. Garrett. And I am going to interrupt for a second. And, 
Dr. Dunford and Mr. Lyng, I am going to get to you guys. I 
mean, the really basic argument that somebody--you know, public 
school kid like me would make is you very rarely see someone 
who is looking forward to going to med school in 2 years strap 
a suicide bomb to themselves. Right?
    Mr. Lyng. Right.
    Mr. Garrett. Hope and opportunity.
    Mr. Lyng. Right.
    Mr. Garrett. And the aspirational reality that you might 
achieve a goal removes desperation. And where your next meal is 
coming from is--that is real desperation. Right? I am on a 
diet, all right, but I know at some point I am going to eat. 
So--anyway, go ahead.
    Mr. Lyng. And those are baked into our projects now. And I 
think--you know, I think it is important that--although we hear 
a lot of grim statistics, and we face a very important task, 
there is hope.
    I have been lucky enough to spend 9 years of my career in 
Indonesia. Indonesia is a country that with a noncoercive 
family planning program was able to bring--and issues that 
don't involve contraception, but education and cultural 
acclimation, was able to reduce its birth rate, increase the 
education level of its women, and essentially, increase its 
prosperity over time.
    So a lot of that was done at the USAID and MCC assistance. 
So we do have the tools, and we are trying to implement them in 
a way. We sometimes face very hard, objective practical 
problems, but there is hope, and we can do it.
    I am sure Beth has more.
    Ms. Dunford. Thank you very much for your question. It is a 
very important one. A recent study from northeastern Nigeria 
done by Mercy Corps found that the number one recruitment tool 
by Boko Haram was providing access to financial services to 
youth in northeastern Nigeria. And so I think that the kinds of 
programs that we have that are offering livelihood 
opportunities for these youth are critically important. And we 
are moving our programs into the areas on the fringes of Boko 
Haram, moving in to provide that livelihood opportunity that 
people crave.
    Mr. Glin. Thank you for your question, sir. And as Beth 
said, we have examples of ADF's work in northern Nigeria, 
combating the threat of Boko Haram through economic 
empowerment. But let me give you an example from the other side 
of the continent, from the Horn of Africa.
    In Somalia, there is information and data that says al-
Shabaab is able to recruit a young person into al-Shabaab with 
a promise of $50 a month and a cellular phone. Fifty dollars a 
month and a cellular phone. USADF's programs over the past 5 
years have impacted and been focused on job creation and job 
placement and have impacted over 6,000 youths.
    The average income of the youth in our economic development 
programs is $300 a month. So they have a choice now, an 
opportunity now, an alternative now, because we are saying to 
those who are giving them $50 a month and a cellular phone, 
there is a job that you can create that can give you $300, and 
they are making positive choices. But as you said, this is hard 
work.
    Mr. Garrett. Mr. Chairman, briefly.
    And the other thing is, what you do, Mr. Glin, 
specifically, in leveraging the local nations to take 
ownership, right, is great. And I don't want to in any way, 
shape, or form disparage it, but there is so much to be tapped 
into here in the private sector.
    For example, I think a resident in my district recently 
donated $12.7 million to create a squash facility at the 
University of Virginia. Uganda chipped in $5 million over 5 
years to augment these programs in the United States. So I 
guess what I am driving at is not in any way, shape, or form 
criticism; in fact, I don't mean that to any of you. But if 
information is disseminated, if we solicit the private 
community, and--I have talked to people about school feeding 
programs, and I am on the right side of the right side, right, 
politically. And when they understand it, they go, wow, yeah, 
it all makes sense.
    So I hope that this committee, perhaps, can help, and that, 
you know, you all in your capacities can help in sort of 
telling the American citizen, who is an amazing resource of 
charity, just how much good we can do.
    And the problem--and I sympathize with all three of you. I 
was a prosecutor and we did a lot of computer crimes, people 
that would pursue children using the Internet. And whenever you 
caught one of those guys, they usually were--you don't know--
you know, you don't know how many kids you saved. And whenever 
you divert a young person from Boko Haram into a productive 
member of society, you don't know how many people you have 
saved directly, and tangentially, today, and to come, right? 
But we know the work is worthwhile.
    I just hope that we can get the word out to the private 
sector that any individual generous enough--and I in no way, 
shape, or form criticizing this individual either, to 
generate--to donate $13 million for a squash facility, might 
think it is worthwhile to put a couple million dollars in the 
school feeding program.
    So thank you, Mr. Chairman. Thank you all.
    Mr. Smith. Mr. Garrett, thank you very much.
    I would like to yield the floor to Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman.
    Thank you to each of the witnesses for the great work that 
you do and for your testimony here today. I want to compliment 
my colleagues, both those that are here and that have left 
already for their insightful comments and responsible comments 
that they have made here today.
    I just want to point out, and I don't know if this has been 
put on the record, but for the agricultural development and 
food security program, the fiscal year 2017 appropriation was 
$1 billion. The budget request from the President is $500 
million. The international disaster assistance program, the 
fiscal year 2017 appropriation was $4.4 billion. The 
administration request is $2.5 billion. The 480 Title II 
program, Food for Peace, the fiscal year 2017 appropriation was 
$1.4 billion. The administration request is zero. The McGovern-
Dole Food for Education Program was $201 million for fiscal 
year 2017 appropriation, and zero in the administration's 
request. And the Global Agriculture and Food Security fund, $23 
million in fiscal year 2017, and zero in the administration 
request.
    So we have heard, and you all know, that there is 
tremendous suffering going on in the world right now. We know 
about the costs. You have spoken about the costs of doing 
emergency feeding of people. We have heard testimony about the 
impact on terrorism and how people are recruited because of 
food insecurity in terrorist organizations.
    And I was with the former Governor of South Carolina the 
other day, Governor David Beasley, who is the Executive 
Director of the U.N. World Food Programme, who talked about how 
his work that he is doing with $6 billion to $9 billion a year 
in food distribution is the frontline against terrorism. And he 
is a very conservative Republican. And some of his colleagues 
were saying to him, well, it is the U.N. He says, well, I don't 
know about the whole U.N., but this program is essential for 
the world.
    So there is a battle in the world going on these days, not 
between ideologies, but between stability versus instability.
    We have gone from 35 million refugees 10 years ago to 65 
million refugees today. And there are people that are trying to 
exacerbate that instability. We have instability due to climate 
change. We have instability due to corruption, to incompetence 
and lack of resources, but there are other governments and 
organizations that are trying to promote instability in the 
world.
    And the work that you are doing is to try and bring 
stability. You are in the frontline of that battle between 
stability and instability. And I just would like each of you to 
please tell me one example of what you think is an example--and 
you have to put it in plain English terms for all of us--a 
great example of success, of something that you have been 
involved with. It doesn't have to be, you know, in the past 
year. Past year would be great, but a great example of what you 
see as being a success, where, you know, you put in this much 
money, this is the program that you did, you provided this, and 
this is the result today. Especially something as far as, not 
as emergency feeding, but as far as building capacity and long-
term sustainability.
    Mr. Lyng.
    Mr. Lyng. So I will give you a very small example, because 
I think it is very striking and emblematic in a lot of ways. As 
we engaged a Silicon Valley firm in a partnership to help 
provide better data on metrics of food security, and they were 
able to apply a lot of innovative techniques that someone my 
age cannot understand at all, and we were able to bring to bear 
a lot of the data that previously was untapped for food 
security and specifically, sustainable development goal number 
two. That project has now taken on a life of its own. The U.N., 
in May, in fact, engaged this Silicon Valley firm to do the 
monitoring and evaluation for all of the sustainable 
development goals. I think that was a great success.
    Mr. Suozzi. Okay. But I know that that is a great important 
work, and I know that, and it is very essential. But I want you 
to try and tell me things that--each of you, to tell me things 
that are examples of something on the ground that happened that 
resulted in a now sustainable community.
    So I heard a lot of talk about policy--policy positions put 
in place and metrics that are put in place and different ideas 
of programs. I want to hear in real life, like we invested this 
much money and now they are growing this crop, or put in this 
much money and now they are doing this livestock, or this is 
how it has impacted this particular community.
    You can go to the next person, if you want, and----
    Ms. Dunford. Thank you, sir, for your question. I would 
like to talk about Malawi in 2016, which was suffering a 
terrible drought, and compare two villages. One village needed 
food assistance in 2016, and the World Food Programme spent 
over 10 months $390 per family to feed that family to make it 
through the year. And it was very clear from visiting this 
village that this village will need food assistance, if not 
this year, then the next year and the year after that.
    Compare that to another village that received less money, 
or just over $370 over a period of 5 years, from 2009 to 2014, 
for development, food security, resilience interventions that 
helped with things like irrigation, market access, farming 
techniques. This 5-year investment that, in total, cost less 
per family than to feed families in this other village for 10 
months over 5 years investment, they then, in 2014, the program 
ended, come back at 2016 when there is a drought, and the 
village is flourishing. They don't need food assistance. People 
are self-sufficient, have strong livelihoods, and it is a happy 
place to be.
    For me, that is the ultimate success of our programs. You 
go back 3 years later, and they are very successful in the face 
of what is a historic drought in Malawi.
    Mr. Suozzi. So that is a great example. And thank you so 
much, Doctor.
    So you are saying the money was invested in irrigation. It 
was invested in market access. So what do you mean by market 
access?
    Ms. Dunford. Irrigation, also crop production, market 
access, helping farmers aggregate their products and link them 
to markets so they can sell their products that they grow.
    Mr. Suozzi. So you show them how they would sell--where 
they would sell it and how they would sell their crop?
    Ms. Dunford. Yes, and helping to form farmers organizations 
that can get decent prices on the market.
    Mr. Suozzi. Okay. Thank you very much.
    Mr. Glin. Thank you, sir, for your question. And your 
interest is exactly why USADF exists, for direct grassroots 
investments into local enterprise not only to help them 
increase their sustainability, but for them to grow.
    A perfect example of that is a cooperative in Liberia, a 
women's cooperative, Gbelaygeh. These are a group of women who 
were forced to leave their country during civil war in Liberia, 
returned back as widows. They formed themselves into 
cooperatives, more so from a social reason. You know, women and 
the rice were sort of what they had in common. They applied for 
a grant to USADF funding, a grant of under $250,000. We gave 
them a grant to increase their farming practices, to upgrade 
their farming practice, to become more registered, and to be a 
viable business unit, a farmer--as I said, a farmer producer 
organization, and then also to be able to have processing 
equipment. They were growing and then milling rice and selling 
that rice.
    Then Ebola hits. The resilience that they got from having 
the operational assistance and support through the USADF grant 
and their ability to not only survive, but to withstand the 
shock that came through Ebola, and then to thrive after. In 
Ebola, this group actually still turned a profit. Today, sir, 
that group is selling to the World Food Programme, which you 
referenced. They are selling rice, and they are also buying and 
processing palm oil.
    This is a women's widowed cooperative that now is a viable 
business unit, and they have survived and adapted and thrived 
in the face of stresses that they could perceive and some they 
would have never been able to perceive. But that is an example 
of what USADF does all over the continent in 20 countries, 
cooperative after cooperative.
    Last year, we invested in over 500, so I can give you 500 
individual resilience and enterprise development stories. And 
that is what our appropriation from Congress does. It impacts 
people directly.
    Mr. Suozzi. So in that particular instance of Liberia, the 
money was invested in buying the milling equipment as well as--
--
    Mr. Glin. As well as the training and technical assistance 
they needed to increase their agricultural practices. So they 
got equipment. They got training. They had some level of market 
access in the market was--World Food Programme, they have 
specific quality, quantity, and--specific standards that they 
needed to be trained on.
    Mr. Suozzi. So an example of a training would be they used 
that grant money, and they hire somebody to come in and show 
them how to run a cooperative?
    Mr. Glin. Correct, sir. And that person is going to be--in 
our grant funding is going to be a local Liberian technical 
assistance training provider. So the money is also still 
generated in the country.
    Mr. Suozzi. Okay. I am in no position to give you advice, 
but I wanted--I think it is very important, when telling people 
your wonderful stories and important stories, to tell specific 
examples of putting a human face on things: We took this money, 
we bought this piece of equipment, we hired this person to 
train them, we helped them form this organization, we 
introduced them to the marketplace, specific examples of 
things, because it puts a human face on these very desperate 
circumstances.
    So thank you so much for your life's work, and we are very 
grateful to you. We will do everything we can to help you. 
Thank you.
    Mr. Glin. Thank you.
    Mr. Smith. Thank you, Mr. Suozzi.
    Just a couple of final questions. And, again, thank you for 
your patience with the delay we had at the outset of the 
hearing because of votes.
    The Appropriations subcommittee lead by Hal Rogers last 
week marked up the subcommittee draft, and tomorrow will be the 
full committee. And I think it should not go unnoticed that of 
the funds appropriated under Title II of this act, not less 
than $1.6 billion should be made available to carry out the 
provisions of the Global Food Security Act of 2016, Public Law 
114-195, of which not less than $60 million shall be made 
available to Feed the Future innovation labs. That is the exact 
amount authorized by the Global Food Security Act.
    And I have to say, I have been here for 37 years, 
authorization levels are almost never met on their--and to say 
not less than shows, I think, on the part of our friends on the 
Appropriations Committee led by Hal Rogers, a very deep 
commitment to this initiative. So I think I should--so what was 
sent up originally--I have never seen a budget that was not 
radically altered, starting with Ronald Reagan.
    I would note that even under President Obama--and I 
remember because I raised it here in this subcommittee. Despite 
the fact that I am taking a lead on the neglected tropical 
diseases, I believe passionately in trying to expand our 
resources, President Obama sent up a 20 percent cut in 
neglected tropical diseases. He did the same thing for TB. And 
we know we have had multiple hearings in this subcommittee on 
that as well. Mark, I believe, testified, you know, as did 
others on--from the Global Fund on the importance of staying 
focused on tuberculosis, particularly multidrug resistance; 
that too had a 20 percent cut.
    Congress took the recommendation that came from the Obama 
administration as it did--and is doing right now from the Trump 
administration, that said, thank you, we will try to meet some 
of these goals in a different way with more resources.
    So I am happy to say, and I want to express my gratitude to 
Hal Rogers for being so responsive and his staff and his 
subcommittee to this.
    And we have a ways to go, obviously. The bill hasn't passed 
the House yet, hasn't passed the Senate, but I think it is a 
good marker that there is a deep commitment to global food 
security in general and to the act and its provisions in 
particular.
    Let me also just point out and ask you, if I could, Dr. 
Dunford, on page--whatever page this was, you said, first, we 
further elevated nutrition and are seeking to better integrate 
water, sanitation, and hygiene into our efforts to better 
nourish women and children, continuing our focus on the first 
1,000 days.
    Perhaps you could elaborate on how you are doing that. I 
think it is tremendous and it shows, you know, integrating is 
important. They are all interrelated, and you are doing it, so 
thank you for that.
    I would ask, Mr. Glin, if you could, you talk about in 
South Sudan you have four USADF sustainable agricultural 
programs worth a total of $670,000, and that they are 
mitigating the effects of famine.
    When Karen Bass and I met with Salva Kiir for the better 
part of 2 hours in Juba during the Memorial Day recess, we 
focused, I think like a laser beam, to quote somebody else 
years ago, on the idea that conflict is driving this famine. We 
also pointed out repeatedly the 84 humanitarian aide workers, 
many of them indigenous South Sudanese, have been killed, and 
that is worse than the ISIS atrocities in terms of humanitarian 
workers. It is the worst in the world. And that is since 
December 2013.
    So perhaps, Mr. Glin, you can tell us about your personnel, 
how well have they faired, and maybe elaborate on that program, 
if you would, those four programs, those four initiatives.
    Because we kept stressing with Salva Kiir and his staff: 
Lay off the humanitarian aide workers. Stop interdicting 
convoys of food and humanitarian assistance, fleecing the truck 
drivers, taking the product intended for hungry, hungry people 
and sick people, and then distributing them on the black 
market. It is your military. Yeah, there are some militias, but 
it is your military.
    And what happened in Terrain Hotel compound a year ago July 
is testimony to how quickly a military can careen out of order.
    You also said, Mr. Glin, that you are very involved with 
the strategy of the Global Food Security Strategy and actively 
participating in the target country selection process. If you 
could elaborate on that process. And, again, what are the 
criteria for selecting a country when you sit and, you know, 
decide country X, Y, or Z will be a part of it? If you could, 
it would be very helpful to the committee and to me and I think 
all of us.
    And if you could also perhaps, Mr. Lyng, informally; you 
know, not going through OMB, I know it all has to be vetted, 
but ideas for reauthorization. You know, unmet needs, your 
walking point, we need to know from you to get it right. And we 
did have--we had great input from the previous administration, 
starting with Dr. Shah, on what the bill ought to look like, 
and of course, Dr. Dunford, you provided expert testimony as 
well. So we got it right. I think we did at the end of the day. 
So any thoughts you might have on that now or perhaps for the 
record, so as we go through the process----
    The best reauthorizations I believe are those that take a 
year or more, because you just keep vetting every provision, 
testing it with the stakeholders or the administration to try 
to get it right. And so I want to, you know, ask you for that.
    And, of course, Dr. Dunford, you as well, if you could 
answer that.
    I do have a few other questions, but I will submit it for 
the record.
    I do have one more for Dr. Lyng. Food on the water on its 
way. The most efficient way to deliver emergency aid. Is there 
an analysis about how best to get the delivery of those 
foodstuffs to the people, like how much more it costs to take 
it over longer distances? And, of course, that reduces the 
impact of every dollar. So if you could.
    Mr. Glin, if you could begin.
    Mr. Glin. Thank you, Mr. Chairman, for the questions.
    As it relates to South Sudan, it is an important country 
that we have been operating in since 2011. Our operating model 
being, as we sort of say, African-led and -managed, meaning 
that our program team on the ground are South Sudanese. Our 
team is very inclusive of a multitude of ethnicities and 
different people representing different tribes, so we have been 
able to continue operations throughout the crisis that 
currently exists. We work at that community level, so we think 
it is important to include all voices.
    Our focus on enterprise creation to lead to poverty 
alleviation has been critical in that we are supporting 
agricultural enterprises that are actually growing food in the 
midst of the famine.
    One example is an initiative that we have, one of our 
grants where 60 lead farmers are now training 4,000 smallholder 
farmer families, and they are in the maize value chain. They 
are growing and processing maize, and now have used their own 
profits, in the midst of the famine, sir, to sell to and to 
create a local bakery that is able to provide bread for those 
with need, if you will.
    So South Sudan is an important country for us, and our 
focus around the enterprise creation during the midst of the 
famine is leading to food security and moving groups from food 
aid dependency to self-sufficiency.
    As it relates to the Global Food Security Strategy, we 
are--you know, we are proud to be one of the 11 implementing 
agencies. I can say on a personal note, Dr. Dunford, as a 
friend, her whole style, sir, is inclusive and has been able to 
allow USADF to have a seat at the table, not only here in 
Washington but, most importantly, in the countries where we 
operate as we develop the country's strategies. And USADF looks 
at our investments, the regions in which we operate, the levels 
and the groups that we are going to support, how do those roll 
up to broader global food security strategy objectives.
    So this has been very a inclusive process, and we have been 
able to have a seat at the table.
    Mr. Smith. If I could, on the strategy criteria, could you 
elaborate on each of those points? I think there is six of 
them. Dr. Dunford or----
    Mr. Glin. Yes. I defer to Dr. Dunford.
    Mr. Smith. Okay.
    Ms. Dunford. Thank you, sir, for your question on country 
selection. Our six criteria that we submitted with the Global 
Food Security Strategy on selecting target countries would be 
need, opportunity for ag-led growth, opportunities for regional 
synergies, opportunities for partnerships, host country 
government commitment to food security nutrition, and U.S. 
Government resource availability. So those six criteria are 
what we are using to finalize our country selection going 
forward.
    Mr. Smith. And that other question, if you would.
    Ms. Dunford. Yes. And I wanted to talk about linkages. 
Thank you so much for raising that question. It is a very, very 
important one.
    We are working so that our food security efforts are linked 
to other efforts in the broader development work of USAID.
    For PEPFAR, it really doesn't do any good to give someone 
antiretroviral drugs if they don't have food to eat, if they 
don't have nutritious food to eat, and then, again, if they are 
drinking dirty water. We want to make sure that we are feeding 
the people and not the worms. I think deworming is very, very 
important to couple with all of this to be sure that the people 
that we are working with are well nourished.
    And locating those activities in the same communities and 
targeting the same people is one of the ways in which we do 
that. We have a lot of overlap in countries that we work with 
and really work to further synergize those efforts in regional 
areas.
    Mr. Glin. Mr. Chairman, if I may. I wanted to complement 
that response. Our work with the Global Food Security Act 100 
percent complements our work with Electrify Africa and links to 
our work with AGOA. As we look at a smallholder agricultural 
cooperative that now has access to off-grid energy, whether it 
be solar irrigation or whether it be solar-powered maize mills, 
that increases their level of productivity and leads to 
agricultural-led growth. That, coupled with their ability to 
find markets, enables them to then feed into the African Growth 
and Opportunity Act.
    So we look at the synergies between GFSA, Electrify Africa, 
and AGOA in almost all of our investments where possible.
    Mr. Lyng. I apologize that saying ``food on the water'' was 
metaphorical. Certainly, our colleagues at USAID do work on 
disaster assistance. They look at a wide variety of local 
procurement as well as U.S. shipments from the United States.
    I will say, they are the among the hardest working of all 
of us. You can call their office almost any time night or day 
and they are working, because they understand the 
responsibility they have to keep people from starving.
    Mr. Smith. One last point. I do hope, especially with the 
G7 statement, that if there needs to be a bridge for food 
security to those who are suffering--it was really difficult 
to--and I know Karen had the same takeaway--to see so many 
people who were famished and emaciated being told that they--
and they didn't complain, because they were happy that they 
were in a camp--this is Bidi Bidi I am talking about--but they 
were having their foodstuffs cut in half.
    And, again, I know we are the leading donor, and it is 
great that, you know, we are trying to get others to provide 
significantly more, but whatever can be done on the shorter 
term, I hope would be that that would be--that would be done on 
an emergency level.
    Anything else you would like to add before we close? Any 
ideas for legislation? Of course, you can convey that to us for 
the record or privately. But I think we need to know what we 
missed, what you have found that needs to be incorporated, and 
we will have additional hearings going--in the future on that 
as well so we get it right.
    And it shows authorizing levels do matter. Some people--you 
know, we just passed a reauthorization of the Trafficking 
Victims Protection Act, and there were some people who thought 
why put an authorizing number in there that is above the 
appropriated level. Because we do believe, based on input and 
years of experience, that that number is justified. But if my 
reading of the plain text from Hal Rogers is correct, he hit it 
right on the nose with the authorized level and said not less 
than, which is cause for additional hope and expectation that 
if it is needed, more money will be provided or allocated here.
    So, yes, back to you.
    Ms. Dunford. Mr. Chairman, we greatly appreciate the 
bicameral and bipartisan support for the Global Food Security 
Act, and we look forward to continuing to work in partnership 
and close collaboration with Congress as we implement the act 
going forward.
    The increased accountability and oversight that is in the 
act enables a more in-depth dialogue on specific results, and I 
think we welcome that conversation.
    Mr. Smith. Thank you.
    I want to thank you--oh, yes.
    Mr. Glin. No. Mr. Chairman, just the inclusion and the 
emphasis on smallholder farmers as it relates to global food 
security is something that is appreciated by USADF, but that is 
something that is so important for Africa and its development. 
So that is something that we wanted to continue to champion.
    Mr. Smith. Well, thank you.
    Thank you so much for your leadership and for being here 
today. The hearing is adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
	 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
         

                                 [all]
</pre></body></html>
